                                       Department of the Interior 
                                       Office of Inspector General 
                                                                   
                                                                         
                                                                         
                                                                         
                    AUDIT REPORT 



                         U.S. Fish and Wildlife Service 
                      Federal Assistance Program Grants  
                                 Awarded to the  
                    Nebraska Game and Parks Commission,  
                   From July 1, 2004, through June 30, 2006  
                                         
 
     
     
     
     
     
     
     
     
        Report No. R­GR­FWS­0003­2007                  September 2007
                    United States Department of the Interior
                             OFFICE OF INSPECTOR GENERAL
                             12030 Sunrise Valley Drive, Suite 230
                                    Reston, Virginia 20191

                                                                              September 19, 2007

                                    AUDIT REPORT
Memorandum

To:          Director
             U.S. Fish and Wildlife Service

From:        Christina M. Bruner  
             Director of External Audits

Subject:     Audit on the U.S. Fish and Wildlife Service Federal Assistance Program Grants
             Awarded to the Nebraska Game and Parks Commission, From July 1, 2004,
             through June 30, 2006 (No. R-GR-FWS-0003-2007)

        This report presents the results of our audit of costs incurred by the State of Nebraska
(State) Game and Parks Commission (Commission) under grants awarded by the U.S. Fish and
Wildlife Service (FWS). FWS provided the grants to the State under the Federal Assistance
Program for State Wildlife Restoration and Sport Fish Restoration (Federal Assistance Program).
The audit included claims totaling approximately $15,941,051 on 79 grants that were open
during State fiscal years (SFYs) ended June 30 of 2006 and 2007 (see Appendix 1). The audit
also covered Commission compliance with applicable laws, regulations, and FWS guidelines,
including those related to the collection and use of hunting and fishing license revenues and the
reporting of program income.

       We found that the Commission complied, in general, with applicable grant accounting
and regulatory requirements. However, we found that the Commission had inadequate security
controls for their information technology systems and did not report all program income.

         We provided a draft of the report to FWS and the Commission for responses. We
summarized Commission and FWS Region 6 responses after each recommendation, as well as
our comments on the responses. FWS stated they would consider the Commission’s comments
in their corrective action plan. We list the status of each recommendation in Appendix 3.

        Please respond in writing to the findings and recommendations included in this report by
December 18, 2007. Your response should include information on actions taken or planned by
the State, targeted completion dates, and titles of officials responsible for implementation.

       If you have any questions regarding this report, please contact the audit team leader, Mr.
W. S. (Bill) Streifel at 916–978–5625, or me at 703–487–5345.

cc:   Regional Director, Region 6, U.S. Fish and Wildlife Service
                                                Introduction

Background

The Pittman-Robertson Wildlife Restoration Act and the Dingell-Johnson Sport Fish Restoration
Act (Acts) 2 established the Federal Assistance Program for State Wildlife Restoration and Sport
Fish Restoration. Under the Federal Assistance Program, FWS provides grants to States to
restore, conserve, manage, and enhance their sport fish and wildlife resources. The Acts and
federal regulations contain provisions and principles on eligible costs and allow FWS to
reimburse States up to 75 percent of the eligible costs incurred under the grants. The Acts also
require that hunting and fishing license revenues be used only for the administration of the
State’s fish and game agency. Finally, federal regulations and FWS guidance require States to
account for any income they earn using grant funds.

Objectives
Our audit objectives were to determine if the Commission:
       •   claimed the costs incurred under Federal Assistance Program grants in accordance with
           the Acts and related regulations, FWS guidelines, and the grant agreements;

       •   used State hunting and fishing license revenues solely for fish and wildlife program
           activities; and

       •   reported and used program income in accordance with federal regulations.

Scope
Audit work included claims totaling $15,941,051 on the 79 grants that were open during SFYs
2005 and 2006 (see Appendix 1). We report only on conditions that existed during the audit
period. We performed our audit at the Commission’s headquarters in Lincoln, NE, and visited 3
District Offices, 12 Wildlife Management Areas (WMAs), 3 boat ramps, and 2 other locations
(see Appendix 2). We performed this audit to supplement, not replace, the audits required by the
Single Audit Act Amendment of 1996 and by Office of Management and Budget Circular A-
133.
Methodology
We performed our audit in accordance with the “Government Auditing Standards” issued by the
Comptroller General of the United States. We tested records and conducted auditing procedures
as necessary under the circumstances. Our tests and procedures included:

       •   examining the evidence that supports selected expenditures charged to the grants by the
           Commission;

2
    As amended 16 U.S.C. §§ 669 and 777, respectively.

                                                         2
   •   reviewing transactions related to purchases, direct costs, drawdowns of reimbursements,
       in-kind contributions, and program income;

   •   interviewing Commission employees to ensure that personnel costs charged to the grants
       were supportable;

   •   conducting site visits to review equipment and other property;

   •   determining whether the Commission used hunting and fishing license revenues solely
       for sport fish and wildlife program purposes; and

   •   determining whether the State passed required legislation assenting to the provisions of
       the Acts.

To the extent possible, we relied on the work of the Nebraska Auditor of Public Accounts, which
helped to avoid duplication of audit effort.

We also identified the internal controls over transactions recorded in the labor and license fee
accounting systems and tested their operation and reliability. Based on the results of initial
assessments, we assigned a level of risk to these systems and selected a judgmental sample of
transactions in these systems for testing. We did not project the results of the tests to the total
population of recorded transactions or evaluate the economy, efficiency, or effectiveness of
Commission operations.

Prior Audit Coverage
On January 9, 2004, we issued “Final Audit Report on Costs Incurred by the State of Nebraska
Game and Parks Commission, under Federal Assistance Grants from the U.S. Fish and Wildlife
Service from July 1, 2000, through June 30, 2002” (Report No R-GR-FWS-0024-2003). We
followed up on all recommendations in the report and found that the Department of Interior,
Office of the Assistant Secretary for Policy, Management and Budget considered them to be
resolved and implemented.

We reviewed the State’s Comprehensive Annual Financial Report and the Single Audit Report
for SFY 2005. The reports did not include any findings regarding the Department’s Federal
Assistance Program grants or programs under the grants.




                                                  3
                                     Results of Audit

Audit Summary
We found that the Commission complied, in general, with applicable grant agreement provisions
and requirements of the Acts, regulations, and FWS guidance, including those pertaining to
license revenues. However, we identified conditions that resulted in the findings listed below.
We discuss the findings in more detail in the Findings and Recommendations section.

       Inadequate Security Controls for Information Technology Systems. The
       Commission allowed certain employees to access financial information stored on the
       local server using the same user identification and password. It also failed to require
       alteration of passwords at regular intervals.

       Unreported Program Income. The Commission did not report all program income
       earned under Federal Assistance Program grants FW 21-D-7 and FW 21-D-8.

Findings and Recommendations

A.     Inadequate Security Controls for Information Technology Systems

       The Commission stores all critical financial data on a local server. The Commission’s
       information technology manager is responsible for issuing user identifications and
       passwords to employees so they can access this data. The manager only issued one user
       identification and password to each of the Commission’s Divisions, including the
       Personnel, Budget and Fiscal, and Federal Aid Divisions. All employees in each division
       shared the same user identification and password to access the critical financial data. In
       addition, the Commission does not have policies or processes to ensure passwords are
       changed periodically.

       The State’s Information Security policies require that all users have a unique user
       identification and confidential password to log on to information technology systems. In
       addition, passwords should be changed at regular intervals, at least every 90 days.

       Unique user identifications are necessary to assign specific privileges to a particular user.
       Not restricting privileges by user makes it difficult to ensure separation of duties and
       other generally accepted security measures. Additionally, the use of computer passwords
       that are not confidential allows unauthorized access and increases the risk of loss or
       misuse of critical Commission financial and grant data.

       Recommendation

       We recommend that FWS require the Commission to maintain unique user identifications
       and passwords for each user who has access to Commission computer systems and
       require that passwords be changed on a periodic basis, at least every 90 days.

                                                 4
     Commission Response

     Commission officials did not concur with the finding. They believe critical financial data
     is stored following statewide protocol for access restrictions. However, the Commission
     is in the process of reorganizing the Information Technology section and its network
     environment. The new system will allow for individual user identifications and
     passwords and require that the passwords be changed every 90 days in accordance with
     State information technology policy.

     FWS Response

     FWS Region 6 officials stated that the Commission’s response will be considered in the
     preparation of the Corrective Action Plan.

     OIG Comments

     We consider the recommendation unresolved because FWS Region 6 officials did not
     indicate whether or not they concurred with the recommendation. The Commission’s
     planned reorganization and change in network environment should adequately address
     the audit recommendation, but additional information is needed in the corrective action
     plan, including:

         • FWS concurrence or nonconcurrence with the recommendation, and the rationale
           for any nonconcurrence;

         • actions taken or planned;

         • targeted completion dates;

         • titles of the officials responsible for implementation; and

         • verification that FWS headquarters officials reviewed and approved of actions
           taken.

B.   Unreported Program Income

     The Commission did not report all barter transactions that occurred on lands within the
     WMAs managed and maintained with Federal Assistance Program funds under grants
     FW-21-D-7 and FW-21-D-8. The barter transactions allow farmers to grow crops on
     WMAs in exchange for leaving a portion of the crops for wildlife. The gross value of the
     crops is barter income. Grantees may earn such “program” income from grant-related
     activities, but the Code of Federal Regulations (50 C.F.R. § 80.14(c)) requires grantees to
     report such income to FWS.

     Title 43 C.F.R. § 12.65(b) defines program income as gross income received by the
     grantee that is directly generated by a grant-supported activity, or earned only as a result
     of the grant agreement during the grant period. Commission officials do not believe they

                                              5
need to report barter transactions involving row crops because the lease protocols for the
crops prohibit Commission staff from charging Federal Assistance Program grants for
time spent negotiating or monitoring the leases. Our limited tests of revenue and expense
accounts and payroll records did not indicate that employees charged to the grants any
time spent managing row crop leases. However, such costs were not specifically
segregated in the accounting system and could not be easily identified.

Additionally, the services provided by the farmers (i.e., the crops left for wildlife) support
the objectives of grants FW-21-D-7 and FW-21-D-8. The FWS Manual (522 FW 19.4,
Exhibit 1(1)) requires grantees to report income they receive from contractor-provided
services that support grant objectives on lands purchased or managed with grant funds.
The objectives of the grants include providing, protecting, and enhancing wildlife and
fish habitats on State WMAs and establishing and managing habitat components utilized
by Nebraska wildlife. The crop lease agreements indicate specifically that the
arrangements under the leases “are directed primarily at accomplishment of wildlife
management and related public uses.” We therefore believe the barter transactions
should be reported to FWS to meet the requirements of 522 FW 19.4.

Recommendations

We recommend that FWS:

1. resolve the unreported barter transactions that occurred during the audit period and

2. coordinate with the Commission to establish procedures that ensure the Commission
   reports on the financial status reports those barter arrangements that support grant
   objectives.

Commission Response

Commission officials do not concur with our finding or with our recommendations, and
cite 43 C.F.R. § 12.65(b) as support. The officials state that they established a policy
excluding cropping expenses and income from grant FW-21-D, in consultation with
FWS. The officials further state that they recorded all barter transactions, but that they
only report transactions involving grant related activities on the financial status reports.

FWS Response

In response to recommendations B.1 and B.2, FWS Region 6 officials stated they will
consider the Commission's comments in preparing the Corrective Action Plan.

OIG Comments

We consider the recommendations B. 1 and B. 2 unresolved because FWS region 6
officials did not indicate whether or not they concurred with the recommendations.

In response to the Commission, we recognize the difficulty in interpreting the regulations
and guidance on program income. As cited in the finding above, we understand that
                                          6
using only 43 C.F.R. § 12.65(b) would lead Commission officials to believe the crops do
not need to be reported as program income. However, as also cited above, FWS provides
additional guidance in 522 FW 19.4, Exhibit 1(1) on interpreting 43 C.F.R. § 12.65(b).
The guidance requires grantees to report income from contractor-provided services that
support grant objectives on lands purchased or managed with grant funds. The services
provided by the farmers (the crops left as forage for wildlife) supported the objectives of
grants FW-21-D-7 and FW-21-D-8. These grants provide funds to manage the lands on
which the farmers grew crops. The conservation leases specifically stipulate that the
leases are management tools” directed primarily at accomplishment of wildlife
management and related public uses,” which are activities that support grant objectives.

The corrective action plan should include:

  •   FWS concurrence or nonconcurrence with the recommendations, and the rationale
      for any nonconcurrence;

  •   targeted completion dates;

  •   titles of officials responsible for actions or plans to resolve and implement the
      recommendations; and

  •   verification that FWS headquarters officials reviewed and approved actions taken
      or planned by the State.




                                         7
                                                                                                Appendix 1
                                                                                                    Page 1 of 3

                              NEBRASKA GAME AND PARKS COMMISSION
                             FINANCIAL SUMMARY OF REVIEW COVERAGE
                             FROM JULY 1, 2004 THROUGH JUNE 30, 2006



                     Grant Number              Grant Amount               Claimed Costs 2
                     F-6-B-5                        $40,000                    $33,530
                     F-6-B-6                         40,000                     28,182
                     F-75-R-22                      407,215                    428,507
                     F-75-R-23                      216,230                    185,928
                     F-75-R-24                      221,230
                     F-82-E-17                      542,276                       254,600
                     F-82-E-18                      519,944
                     F-82-E-19                      600,533
                     F-84-D-16                      498,680                       270,292
                     F-84-D-17                      546,060                       317,231
                     F-84-D-18                      635,750
                     F-85-L-5                        45,000                        38,869
                     F-86-D-17                      986,775                       905,142
                     F-86-D-18                    1,335,575                       918,999
                     F-86-D-19                    1,060,756
                     F-87-R-16                      490,000                       448,192
                     F-87-R-17                      500,000                       497,314
                     F-87-R-18                      516,000
                     F-118-R-7                      105,346                        99,316
                     F-118-R-8                      108,310                        94,170
                     F-118-R-9                      106,352
                     F-126-R-7                       71,040                        14,312
                     F-126-R-8                        6,040                         6,403
                     F-126-R-9                       61,300
                     F-141-R-5                      190,667                       208,705
                     F-145-B-1                    2,333,333                       846,156
                     F-148-B-2                       22,000                        16,791
                     F-150-B-1                      289,000
                     F-154-B-1                       56,000
                     F-155-R-3                       39,000                        37,332
                     F-156-B-1                      225,000                       166,528
                     F-160-R-2                       72,868                        87,615



2
 Grants with no amount in the claimed costs column were active during the audit period but were not complete
when the audit commenced.


                                                       8
                                                                                                Appendix 1
                                                                                                    Page 2 of 3

                              NEBRASKA GAME AND PARKS COMMISSION
                             FINANCIAL SUMMARY OF REVIEW COVERAGE
                             FROM JULY 1, 2004 THROUGH JUNE 30, 2006


                     Grant Number              Grant Amount               Claimed Costs2
                     F-160-R-3                       75,656                     80,905
                     F-160-R-4                       78,282
                     F-162-B-1                    1,133,333                       317,104
                     F-163-B-1                       12,650                        11,006
                     F-164-R-2                       80,808                        71,359
                     F-164-R-3                       90,141
                     F-166-R-1                       63,721                        66,066
                     F-166-R-2                       60,629                        77,372
                     F-166-R-3                       13,790
                     F-167-D-1                    1,046,350                    1,050,014
                     F-168-T-1                       84,000                       52,821
                     F-168-T-2                       81,000                       77,357
                     F-168-T-3                       90,000
                     F-169-O-1                      130,000                       130,030
                     F-169-O-2                       92,850
                     F-170-B-1                      270,000
                     F-172-R-1                        8,965
                     FW-6-C-64                      215,110                       120,236
                     FW-6-C-65                      215,000
                     FW-12-T-31                     120,000                       102,787
                     FW-12-T-32                     120,000                       103,344
                     FW-16-L-27                     243,215                       229,645
                     FW-16-L-28                     276,815                       276,907
                     FW-16-L-29                     312,000
                     FW-19-T-18                     198,766
                     FW-19-T-19                     118,706                        97,910
                     FW-19-T-20                     233,912
                     FW-21-D-7                    2,788,911                     2,523,329
                     FW-21-D-8                    3,130,765
                     W-15-R-61                      724,550                       836,167
                     W-15-R-62                      834,910                       743,973
                     W-15-R-63                      871,800


_____________________________
2
 Grants with no amount in the claimed costs column were active during the audit period but were not complete
when the audit commenced.


                                                       9
                                                                                                Appendix 1
                                                                                                    Page 3 of 3

                              NEBRASKA GAME AND PARKS COMMISSION
                             FINANCIAL SUMMARY OF REVIEW COVERAGE
                             FROM JULY 1, 2004 THROUGH JUNE 30, 2006

                     Grant Number              Grant Amount               Claimed Costs2
                     W-40-E-30                      490,667                    421,120
                     W-40-E-31                      531,579                    443,099
                     W-40-E-32                      539,315
                     W-41-T-29                      607,000                       488,769
                     W-41-T-30                      607,000                       385,431
                     W-41-T-31                      607,000
                     W-42-L-1                       700,000
                     W-53-L-54                      247,667                       233,402
                     W-53-L-55                       78,267                        68,951
                     W-78-L-34                      311,200                       304,368
                     W-78-L-35                      186,267                        74,904
                     W-78-L-36                      246,500                       245,021
                     W-78-L-37                      310,587
                     W-87-E-1                       313,334                       329,480
                     W-87-E-2                       133,334
                                                $32,614,632                  $15,941,051




_____________________________
2
 Grants with no amount in the claimed costs column were active during the audit period but were not complete
when the audit commenced.



                                                       10
                                     Appendix 2

NEBRASKA GAME AND PARKS COMMISSION
           SITES VISITED

             Headquarters

                Lincoln

            District Offices

                Kearney
                Lincoln
                Norfolk

       Wildlife Management Areas
              Buffalohead
               Cornhusker
              George Syas
            Hedgefield Lake
                Kea Lake
           Meridian-Alexander
            North Lake Basin
                Red Fox
           Sacramento-Wilcox
               Teal Lake
              Yankee Hill
              Yellowbanks

              Other Sites

         Ak Sar Ben Aquarium
        Hunter Education, Lincoln

              Boat Ramps

            Hedgefield Lake
               Red Fox
             Yellowbanks




                  11
                                                                      Appendix 3

                      NEBRASKA GAME AND PARKS COMMISSION
                  STATUS OF AUDIT FINDINGS AND RECOMMENDATIONS



      Recommendations              Status               Actions Required

A, B.1, and B.2             Unresolved         FWS should provide a response to
                                               the recommendations indicating
                                               concurrence or non-concurrence. If
                                               the FWS concurs, provide a plan that
                                               identifies the actions taken or
                                               planned to implement the
                                               recommendations, targeted
                                               completion date(s), the title of
                                               official(s) responsible for
                                               implementation, and verification that
                                               FWS officials reviewed and
                                               approved of actions taken or planned
                                               by the State. If FWS does not
                                               concur, provide the reasons for the
                                               non-concurrence. We will refer
                                               recommendations not resolved
                                               and/or implemented at the end of 90
                                               days (after December 18, 2007) to
                                               the Assistant Secretary for Policy,
                                               Management and Budget for
                                               resolution and/or tracking of
                                               implementation.



   




                                         12
  Report Fraud, Waste, Abuse,
     and Mismanagement
          Fraud, waste, and abuse in government
          concerns everyone: Office of Inspector
          General staff, Departmental employees,
            and the general public. We actively
          solicit allegations of any inefficient and
            wasteful practices, fraud, and abuse
          related to Departmental or Insular Area
         programs and operations. You can report
              allegations to us in several ways.




By Mail:          U.S. Department of the Interior
                  Office of Inspector General
                  Mail Stop 5341 MIB
                  1849 C Street, NW
                  Washington, D.C. 20240

By Phone          24-Hour Toll Free               800-424-5081
                  Washington Metro Area           703-487-5435

By Fax            703-487-5402

By Internet       www.doioig.gov/hotline
